Audit Report




OIG-10-004
Audit of the Bureau of Engraving and Printing’s Fiscal Years
2009 and 2008 Financial Statements


November 4, 2009




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               November 4, 2009


            MEMORANDUM FOR LARRY R. FELIX, DIRECTOR
                            BUREAU OF ENGRAVING AND PRINTING

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Bureau of Engraving and Printing’s
                                    Fiscal Years 2009 and 2008 Financial Statements

            I am pleased to transmit the attached audited Bureau of Engraving and Printing
            (BEP) financial statements for fiscal years 2009 and 2008. Under a contract
            monitored by the Office of Inspector General, KPMG LLP, an independent certified
            public accounting firm, performed an audit of the financial statements of BEP as of
            September 30, 2009 and 2008 and for the years then ended. The contract required
            that the audit be performed in accordance with generally accepted government
            auditing standards; applicable provisions of Office of Management and Budget
            Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles
                •   that management’s assertion that BEP maintained effective internal control
                    over financial reporting as of September 30, 2009 was fairly stated in all
                    material respects.
                •   no instances of reportable noncompliance with laws and regulations tested.

            In connection with the contract, we reviewed KPMG LLP’s reports and related
            documentation and inquired of its representatives. Our review, as differentiated
            from an audit in accordance with generally accepted government auditing
            standards, was not intended to enable us to express, and we do not express,
            opinions on BEP’s financial statements or BEP management’s assertion on the
            effectiveness of internal control over financial reporting, or a conclusion on
compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ reports dated October 30, 2009 and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Shiela Michel, Audit Manager, Financial Audits
at (202) 927-5407.

Attachment
 THE DEPARTMENT OF THE TREASURY
BUREAU OF ENGRAVING AND PRINTING


           Financial Statements


 Years ended September 30, 2009 and 2008


(With Independent Auditors’ Reports Thereon)
                                         THE DEPARTMENT OF THE TREASURY
                                        BUREAU OF ENGRAVING AND PRINTING
                                                 FINANCIAL STATEMENTS
                                     FOR THE YEARS ENDED SEPTEMBER 30, 2009 AND 2008

                                                                  TABLE OF CONTENTS




INDEPENDENT AUDITORS’ REPORT .................................................................................................................1


FINANCIAL STATEMENTS ...................................................................................................................................2

     Balance Sheets .......................................................................................................................................................2
     Statements of Operations and Cumulative Results of Operations .........................................................................3
     Statements of Cash Flows ......................................................................................................................................4
     Notes to the Financial Statements ..........................................................................................................................5

MANAGEMENT’S REPORT
  ON INTERNAL CONTROL OVER FINANCIAL REPORTING ................................................................16

INDEPENDENT AUDITORS’ REPORT
   ON INTERNAL CONTROL OVER FINANCIAL REPORTING ................................................................17

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE
   AND OTHER MATTERS ................................................................................................................................19
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                           Independent Auditors’ Report


The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the accompanying balance sheets of the Bureau of Engraving and Printing (the Bureau) as
of September 30, 2009 and 2008, and the related statements of operations and cumulative results of
operations and cash flows (hereinafter referred to as “financial statements”) for the years then ended. These
financial statements are the responsibility of the Bureau’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements, assessing the accounting
principles used and significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Bureau of Engraving and Printing as of September 30, 2009 and 2008, and the
results of its operations and its cash flows for the years then ended in conformity with U.S. generally
accepted accounting principles.

As discussed in note 2 to the financial statements, the Bureau has adopted the provisions of Financial
Accounting Standards Board Accounting Standards Codification (ASC) 820-10, Fair Value Measurements
and Disclosures, and ASC 855-10, Subsequent Events, effective October 1, 2008 and September 30, 2009,
respectively.

We have also examined management’s assertion that the Bureau maintained effective internal control over
financial reporting as of September 30, 2009, and have issued our report thereon dated October 30, 2009.
That report is an integral part of an audit performed in accordance with Government Auditing Standards
and should be read in conjunction with this report in assessing the results of our fiscal year 2009 audit.

In accordance with Government Auditing Standards, we have also issued our report dated October 30,
2009, on our tests of the Bureau’s compliance with certain provisions of laws, regulations, contracts, and
other matters. The purpose of that report is to describe the scope of our testing of compliance and the
results of that testing, and not to provide an opinion on compliance. That report is an integral part of an
audit performed in accordance with Government Auditing Standards and should be read in conjunction
with this report in assessing the results of our fiscal year 2009 audit.




October 30, 2009


                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
                                  THE DEPARTMENT OF THE TREASURY
                                 BUREAU OF ENGRAVING AND PRINTING
                                                    Balance Sheets
                                           As of September 30, 2009 and 2008


                                                                               2009                    2008
                                                                                      (In Thousands)
ASSETS
Current assets
  Cash (Notes 3 and 14)                                                    $   139,520      $          153,511
  Accounts receivable (Note 10)                                                 28,989                  46,552
  Inventories, net (Note 4)                                                    150,023                 103,967
  Prepaid expenses                                                               5,259                   4,871
Total current assets                                                           323,791                 308,901
Property and equipment, net (Note 5)                                           307,929                 281,876
Other assets, net (Note 6)                                                      15,607                  18,059
Total assets                                                               $   647,327      $          608,836
LIABILITIES AND EQUITY
Liabilities
Current liabilities (Notes 7 and 8)
   Accounts payable                                                        $    16,938      $           13,359
   Accrued liabilities                                                          38,013                  28,585
   Advances                                                                     14,065                   6,477
Total current liabilities                                                       69,016                  48,421
Workers’ compensation liability (Note 8)                                        55,967                  61,447
Total liabilities                                                              124,983                 109,868
Contingencies and commitments (Notes 12 and 13)
Equity
  Invested capital                                                              32,435                  32,435
  Cumulative results of operations                                             489,909                 466,533
Total equity                                                                   522,344                 498,968
            Total liabilities and equity                                   $   647,327      $          608,836


See accompanying notes to the financial statements.




                                                          2
                                THE DEPARTMENT OF THE TREASURY
                               BUREAU OF ENGRAVING AND PRINTING
                                        Statements of Operations and
                                       Cumulative Results of Operations
                               For the Years Ended September 30, 2009 and 2008


                                                                              2009                    2008
                                                                                     (In Thousands)
Revenue from sales (Note 10)                                              $   484,824      $          516,610
Cost of goods sold                                                            380,886                 443,263
Gross margin                                                                  103,938                  73,347
Operating costs:
  General and administrative expenses                                            68,310                60,262
  Research and development                                                       12,252                12,446
                                                                                 80,562                72,708
Excess of revenues over expenses                                                 23,376                  639
Cumulative results of operations at beginning of year                         466,533                 465,894
Cumulative results of operations at end of year                           $   489,909      $          466,533


See accompanying notes to the financial statements.




                                                        3
                                THE DEPARTMENT OF THE TREASURY
                               BUREAU OF ENGRAVING AND PRINTING
                                            Statements of Cash Flows
                               For the Years Ended September 30, 2009 and 2008


                                                                             2009                    2008
                                                                                    (In Thousands)
Cash flows from operating activities
Excess of revenues over expenses                                       $         23,376   $             639
  Adjustments to reconcile excess of revenues over expenses
     to net cash provided by operating activities:
     Depreciation                                                                30,905               28,619
     Loss from disposal of property and equipment                                    72                   38
  Changes in assets and liabilities
     (Increase) decrease in accounts receivable                               17,563                  (7,418)
     (Increase) decrease in inventories                                      (46,056)                  3,135
     (Increase) decrease in prepaid expenses                                    (388)                    581
     Decrease in other assets                                                  2,452                     400
     Increase (decrease) in accounts payable                                   3,579                  (2,148)
     Increase (decrease) in accrued liabilities                                9,428                    (704)
     Increase in advances                                                      7,588                   4,854
     Increase (decrease) in workers’ compensation liability                   (5,480)                  4,012
        Net cash provided by operating activities                                43,039               32,008
Cash flows from investing activities
Purchases of property and equipment                                          (57,030)                (54,477)
        Net cash used in investing activities                                (57,030)                (54,477)
Net decrease in cash                                                         (13,991)                (22,469)
Cash at beginning of year                                                    153,511                 175,980
Cash at end of year                                                    $     139,520      $          153,511


See accompanying notes to the financial statements.




                                                       4
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements

                                 September 30, 2009 and 2008



1. Reporting Entity

The Bureau of Engraving and Printing (Bureau), a component of the United States (U.S.)
Department of the Treasury, is the U.S. Government's security printer. The Bureau designs and
produces U.S. currency. The Bureau also advises and assists federal agencies in the design and
production of other U.S. Government documents requiring counterfeit deterrence or secure
production.

The Bureau operates under basic authorities conferred by the Act of July 11, 1862, (12 Stat. 532;
also, 31 U.S.C. 5114) and other laws and regulations. In accordance with the provisions of
Public Law 81-656, effective August 4, 1950, the operations of the Bureau are financed by
means of a revolving fund. This fund is reimbursed through billings to the Bureau's customers
for products delivered. Public Law 95-81 authorized the Bureau to include in its product prices
an amount to provide funding for the acquisition of capital equipment and future working
capital. Invested capital represents the historical value of the initial contribution made by the
Federal Government.

The financial statements represent the consolidation of two federal revolving funds. The
majority of all financial transactions are contained in the Bureau of Engraving and Printing
Revolving Fund, which finances Bureau operations. The other revolving fund, the Mutilated
Currency Revolving Fund, is used to redeem damaged paper currency received from the public.
All significant balances and transactions between the funds have been eliminated in
consolidation.

2. Summary of Significant Accounting Policies

Basis of Accounting

The Bureau has historically prepared its financial statements in conformity with U.S. generally
accepted accounting principles (GAAP), based on accounting standards issued by the Financial
Accounting Standards Board (FASB), the private-sector standards-setting body. Under such
standards, the Bureau prepares its financial statements using the full accrual basis of accounting
under which revenues are recognized when earned and expenses are recognized as incurred,
regardless of when cash is exchanged.

The Federal Accounting Standards Advisory Board (FASAB) has been designated by the
American Institute of Certified Public Accountants as the standards-setting body for financial
statements of Federal Government entities, with respect to the establishment of GAAP. FASAB
has indicated, however, that financial statements prepared based upon accounting standards
published by the FASB may also be regarded as in conformity with GAAP for those federal
agencies, such as the Bureau, that have issued financial statements based upon FASB accounting
standards in the past. Accordingly, consistent with historical reporting, the Bureau’s financial
statements are presented in accordance with accounting standards published by the FASB.



                                                5
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements

                                  September 30, 2009 and 2008

Estimates

The preparation of financial statements in accordance with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and related
revenues and expenses. Those estimates most significant to the Bureau’s financial statements are
the actuarial estimates made by the Department of Labor (DOL) in arriving at the liabilities for
workers’ compensation, allowances for obsolescence, the useful lives of property and equipment,
the likelihood of losses associated with contingent liabilities, and certain accrued expenses at the
date of the financial statements. Such estimates and assumptions could change in the future as
more information becomes known, which could impact the amounts reported and disclosed
herein.

Cash

Cash represents the aggregate amount of the Bureau’s funds held on deposit with the U.S.
Treasury and are available to pay liabilities. The Bureau historically does not maintain
significant cash balances in commercial bank accounts, and owns no cash equivalents.

Inventories

Raw material and supply inventories are stated at standard cost, except for one advanced
counterfeit deterrent material which is valued using the first-in-first-out (FIFO) method.
Finished goods inventories are stated at weighted average unit cost. All methods approximate
actual cost. Cost elements included in work-in-process and finished goods inventories are direct
materials, direct labor, manufacturing overhead, and manufacturing support.

Property and Equipment

Property and equipment are recorded at cost. Major alterations and renovations are capitalized,
while maintenance and repair costs are charged to expense as incurred. The capitalization
threshold is $50,000. The Bureau capitalizes all cost associated with new construction and
building improvements.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury. In
accordance with the Act establishing the revolving fund, the Bureau is not charged for the use of
the buildings or land, but is responsible for maintenance and repair of all buildings and land
improvements. The land and building shell for the Bureau's Western Currency Facility were
donated by the City of Fort Worth, Texas to the Department of the Treasury (See Note 5).

Depreciation of property and equipment is calculated using the straight-line method over the
following estimated useful lives:

        Machinery and equipment                                            3 - 15 years
        Building improvements                                              3 - 40 years
        Information technology (IT) equipment and software                 3 - 5 years
        Office machines                                                    5 - 10 years
        Furniture and fixtures                                             5 - 10 years
        Motor vehicles                                                     3 - 9 years
                                                 6
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements

                                  September 30, 2009 and 2008


Other Assets

Other assets consist principally of machine repair parts and tools, which are used in the
production of the Bureau's products. Other assets are stated at standard cost, which
approximates actual cost, net of a reserve for obsolescence.

Employee Retirement Plans

Bureau employees participate in the contributory Civil Service Retirement System (CSRS) or
Federal Employees' Retirement System (FERS), to which the Bureau and employees make
contributions according to plan requirements. Consistent with reporting under multi-employer
pension plans, the Bureau does not report CSRS and FERS assets, accumulated plan benefits or
future liabilities, if any, applicable to its employees. This data is reported for plan participants
by the Office of Personnel Management (OPM).

Postretirement Benefits Other than Pensions

Postretirement benefits for former Bureau employees, specifically health care costs and life
insurance, are administered and paid by OPM through appropriations received from the U.S.
Government. The Bureau does not reimburse OPM for these payments. The Bureau's financial
statements do not include the cost of employee postretirement benefits paid by OPM, or the
actuarial liability for such benefits.

Workers’ Compensation Costs

The Federal Employee Compensation Act (FECA) provides income and medical cost protection
to covered federal civilian employees injured on the job, employees who have incurred a work-
related occupational disease and beneficiaries of employees whose death is attributable to a job-
related injury or occupational disease. Claims incurred for benefits for the Bureau's employees
under FECA are administered by DOL and are ultimately paid by the Bureau.

The FECA liability consists of two components. The first component, the accrued FECA
liability, is based on actual claims paid by DOL but not reimbursed by the Bureau. The Bureau
reimburses DOL for the amount of actual claims normally within one to two years after payment
is made by DOL. As a result, the Bureau recognizes a current and non-current liability for actual
claims paid by DOL, to be reimbursed by the Bureau.

The second component, the actuarial FECA liability, is the estimated liability for future benefit
payments. These future workers' compensation estimates were generated from an application of
actuarial procedures developed to estimate the liability for future FECA benefits. The actuarial
liability for future worker's compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approved compensation cases, plus a component
for incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. These annual benefit payments have been discounted to present
value using the Office of Management and Budget’s (OMB) economic assumptions for 10-year
                                                 7
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                 Notes to the Financial Statements

                                   September 30, 2009 and 2008

Treasury notes and bonds, which resulted in discount rates as of September 30, 2009 and 2008,
of 4.22% and 4.37% in year one and 4.72% and 4.77% thereafter. Based on information
provided by DOL, the Department of the Treasury allocated the overall liability to Treasury
components based on past claims paid.

Annual, Sick, and Other Leave

Annual leave is accrued as a liability when earned and the accrual is reduced as leave is taken.
The balance in this accrued liability account reflects current pay rates.

Sick leave and other types of non-vested leave are expensed as the leave is taken.

Revenue Recognition

Revenue from sales to the Federal Reserve System is recognized when finished goods
satisfactorily pass all Bureau quality control standards and are delivered to the on-site Federal
Reserve Depository vaults. Finished goods are released for shipment in accordance with
customer requirements. Revenue from the sale of uncut currency to the public is recognized at
the time the product is shipped. The Bureau does not record an allowance for returns because of
a historically negligible return rate.

Research and Development Costs and Advertising Costs

Research and development costs and advertising costs are expensed as incurred. Advertising
costs, which are reported in cost of goods sold, amounted to $6.5 million and $8.4 million in the
years ended September 30, 2009 and 2008, respectively.

Tax Status

The Bureau is a federal entity, and therefore is not subject to federal, state, or local income taxes.
Accordingly, no provision for income taxes is required in the accompanying financial
statements.

Contingencies

Liabilities from loss contingencies, including environmental remediation costs not within the
scope of FASB Accounting Standards Codification (ASC) 410-20, Asset Retirement and
Environmental Obligations - Asset Retirement Obligations, arising from claims, assessments,
litigation, fines and penalties, and other sources, are recorded when it is probable that a liability
has been incurred and the amount of the assessment and/or remediation cost can be reasonably
estimated. Loss contingencies that do not meet these criteria, but are reasonably possible and
estimable are not accrued, but are disclosed in Note 12.

Fair Value Measurements

On October 1, 2008, the Bureau adopted the provisions of ASC 820-10, Fair Value
Measurements and Disclosures, for fair value measurements of financial assets and financial
                                                  8
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                 Notes to the Financial Statements

                                   September 30, 2009 and 2008

liabilities that are recognized or disclosed at fair value in the financial statements on a recurring
basis. ASC 820-10 defines fair value as the price that would be received to sell an asset or paid
to transfer a liability in an orderly transaction between market participants at the measurement
date. ASC 820-10 also establishes a framework for measurement of fair value and expands
disclosures about fair value measurements (See Note 14).

Subsequent Events

Effective September 30, 2009, the Bureau adopted ASC 855-10, Subsequent Events. It
establishes general standards of accounting for and disclosure of events that occur after the
balance sheet date but before the financial statements are issued (See Note 15).

Comparability

Certain reclassifications have been made to the 2008 financial statements to conform to the 2009
presentation.

3. Cash

The year-end cash balances by fund are as follows as of September 30, 2009 and 2008:

                                                                      2009          2008
                                                                        (In Thousands)
 Bureau of Engraving and Printing
   Revolving Fund                                              $      132,319 $        152,766
 Mutilated Currency Revolving Fund                                      7,201              745
 Total                                                         $      139,520 $        153,511


The balance in the mutilated currency revolving fund, consisting of processed claims for
mutilated currency submitted by the public for redemption, is offset by a liability to the public
which is included in advances on the balance sheets as of September 30, 2009 and 2008,
respectively (See Note 7).

4. Inventories, net

Inventories consist of the following as of September 30, 2009 and 2008:

                                                                       2009           2008
                                                                          (In Thousands)
 Raw material and supplies                                      $       46,772 $         40,517
 Work-in-process                                                        57,879           36,619
 Finished goods - currency                                              28,287            3,232
 Finished goods - uncut currency                                        17,085           23,599
 Total                                                          $      150,023 $        103,967

                                                 9
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                 September 30, 2009 and 2008


The allowance for inventory obsolescence was $743 thousand and $665 thousand, at
September 30, 2009 and 2008, respectively.

5. Property and Equipment, net

Property and equipment consist of the following as of September 30, 2009 and 2008:

                                                                   2009           2008
                                                                      (In Thousands)
 Machinery and equipment                                    $      450,566 $      434,795
 Building and land improvements                                    229,750        236,040
 IT equipment and software                                          26,009          22,060
 Office machines                                                     1,435           1,103
 Furniture and fixtures                                              1,140           1,140
 Donated assets - art work                                             125             125
 Motor vehicles                                                        212             212
                                                                   709,237        695,475
 Less accumulated depreciation                                     454,385        455,184
                                                                   254,852        240,291
 Construction-in-progress                                           53,077         41,585
 Net property and equipment                                 $      307,929 $      281,876


Depreciation expense for the years ended September 30, 2009 and 2008, was $30.9 million and
$28.6 million, respectively.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury.
The land and building shell for the Fort Worth, Texas facility were donated by the City of Fort
Worth to the Department of the Treasury in 1987, which holds the title thereto. At the time of
donation, the land had an appraised value of $1.5 million and the building shell cost was
$5.6 million. In accordance with the provisions of Public Law 81-656, Bureau financial
statements include only the costs to build out the facility.

6. Other Assets, net

Other assets consist principally of machine repair parts and tools. The allowance for
obsolescence for these parts and tools for the years ended September 30, 2009 and 2008, was
$5.0 million and $5.7 million, respectively.




                                              10
                          THE DEPARTMENT OF THE TREASURY
                         BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                 September 30, 2009 and 2008

7. Current Liabilities

All current liabilities are funded and consist of the following as of September 30, 2009 and
2008:

                                                                     2009            2008
                                                                        (In Thousands)
 Intragovernmental                                            $       12,435 $        10,952
 With the public                                                      56,581          37,469
 Total                                                        $       69,016 $        48,421

 Accrued current liabilities consist of the following as of September 30, 2009 and 2008:

                                                                     2009            2008
                                                                        (In Thousands)
 Payroll                                                      $       14,764 $        11,128
 Annual leave                                                         11,185          10,775
 Workers' compensation                                                 5,557           4,874
 Other                                                                 6,507           1,808
 Total                                                        $       38,013 $        28,585

 Advances consist of the following as of September 30, 2009 and 2008:

                                                                     2009            2008
                                                                        (In Thousands)
 Other Federal Agencies                                       $        6,855 $         5,654
 Mutilated Currency                                                    7,201             745
 Public sales                                                               9             78
 Total                                                        $       14,065 $         6,477


8. Workers’ Compensation Liability

Claims incurred and paid by DOL as of September 30, 2009 and 2008, but not yet reimbursed to
DOL by the Bureau, are approximately $12.1 million and $11.7 million, of which approximately
$5.6 million and $4.9 million represent a current liability, as of September 30, 2009 and 2008,
respectively. The Bureau will reimburse DOL for these claims in the next two years. The
Bureau's estimated non-current, actuarially-derived future workers’ compensation liability was
approximately $49.5 million and $54.6 million as of September 30, 2009 and 2008, respectively.

9. Employee Retirement Plans and Postretirement Benefits Other than Pensions

Employer contributions to the retirement plans were $16.5 million and $16.1 million for 2009
and 2008, respectively. The CSRS employer contribution rate for fiscal years 2009 and 2008
was 7.0%. The FERS agency contribution rate for fiscal years 2009 and 2008 was 11.2%. The
cost of providing the CSRS and FERS benefits is more than the amounts contributed by the
                                               11
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements

                                 September 30, 2009 and 2008

Bureau and the employees to OPM. The additional cost of providing benefits, including the cost
financed by OPM, which is not included in the Bureau's Statements of Operations, totaled $23.8
million and $23.1 million in 2009 and 2008, respectively.

OPM paid costs totaling $11.1 million and $10.3 million for the Federal Employees Health
Benefits Program (FEHBP) and Federal Employees Group Life Insurance (FEGLI) programs in
2009 and 2008, respectively. These costs are not included in the Bureau's Statements of
Operations.

10. Related Party Transactions and Concentration of Revenue

The Bureau’s principal customers are other federal and quasi-federal governmental
organizations. During 2009 and 2008, the Bureau’s sales revenue from these organizations as
well as the outstanding amounts due from them as of September 30, 2009 and 2008, are reflected
in the following table:

                                 Revenue for the year ended          Accounts Receivable as of
                                       September 30                       September 30
                                  2009                2008           2009               2008
 Federal Reserve System:                (In Thousands)                    (In Thousands)
  Currency Production       $    467,509            $   492,343 $    27,575         $    45,219
  Mutilated Currency               3,587                  3,757         884                 942
 Other Federal Agencies            3,163                  7,841         165                 391
                                 474,259                503,941      28,624               46,552

 Public sales                       9,764                12,669           2                       —
 Other                                801                    —          363                       —
                                  10,565                 12,669         365                       —

 Total                      $    484,824            $   516,610 $    28,989          $    46,552

Revenues from other federal agencies are derived principally from the sale of security printing
products to U.S. Government agencies and related fees charged.

11. Principal Suppliers

The Bureau is dependent upon sole suppliers for distinctive currency paper, and several
advanced counterfeit deterrent materials.




                                               12
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements

                                  September 30, 2009 and 2008


12. Commitments and Contingencies

The Bureau is a party in various administrative proceedings, legal actions, and claims brought
against the Federal Government by employees, contractors, and other parties. As of
September 30, 2009, there are no contingencies for litigation involving the Bureau, where the
risk of loss is probable. As of September 30, 2008, there were approximately $800 thousand of
such contingencies that were accrued in the financial statements. Contingencies, where the risk
of loss is reasonably possible, are approximately $2.1 million and $4.5 million as of September
30, 2009 and 2008, respectively. Since the risk of loss for these litigations are not probable, the
Bureau did not record any liability. Management believes that the ultimate resolution of these
litigations will not have a material impact on the reported financial position, results of
operations, and cash flows.

The American Council of the Blind (ACB) and others have filed suit against the Department of
the Treasury under Section 504 of the Rehabilitation Act seeking the redesign of U.S. currency.
In 2007, a judge ruled that the current U.S. currency design violates this Act and this ruling was
appealed. In 2008, the United States Court of Appeals for the District of Columbia Circuit
affirmed this ruling. No monetary damages were awarded by the Court. However, the Bureau is
required to provide meaningful access to United States currency for blind and other visually
impaired persons. This may require changes to U.S. currency (excluding the one-dollar note).
The Court ordered such changes shall be completed, in connection with each denomination of
currency, not later than the date when a redesign is next approved by the Secretary of the
Treasury. Because the cost of these changes will be incorporated into future currency redesign
costs, no costs have been accrued in the accompanying financial statements as of September 30,
2009 and 2008.

The United States Court of Appeals, in the above-mentioned case, also ordered that the Bureau
pay the ACB and others for attorney’s fees and costs. Such fees and costs were estimated to be
$800 thousand in 2008. As noted above, in 2008 this amount was accrued and included in other
accrued liabilities.

Judgments resulting from litigation against the Bureau are generally paid by the Judgment Fund.
In 2009, the Judgment Fund paid the attorney fees and other costs accrued in 2008. In 2009, the
Bureau determined it is not required to reimburse the Judgment Fund for those attorney fees and
other costs as they are not claims related to employee discrimination and contract disputes. As
such, the Bureau has recognized income amounting to $800 thousand related to attorney fees and
other costs associated with the ACB settlement paid by the Judgment Fund on behalf of the
Bureau.

The Bureau has contracted to purchase over-printing presses, incorporating automated inspection
and packaging capability, costing approximately $49.0 million. As of September 30, 2009, the
Bureau has made cumulative payments of $10.5 million and the remaining commitment
outstanding is $38.5 million. The Bureau has also contracted to purchase intaglio printing
presses, costing approximately $55.8 million. As of September 30, 2009, the Bureau has made
cumulative payments of $45.7 million and the remaining commitment outstanding is
$10.1 million. Delivery of the presses will be determined upon successful completion of final
                                                13
                          THE DEPARTMENT OF THE TREASURY
                         BUREAU OF ENGRAVING AND PRINTING

                                 Notes to the Financial Statements

                                   September 30, 2009 and 2008

factory inspection tests. Progress payments related to the above contracts are included in
construction-in-progress within Property and Equipment on the balance sheets as of September
30, 2009 and 2008, respectively.

The Bureau does not carry commercial insurance on its physical assets because by law the
Federal Government is self-insured.

13. Operating Lease

In 2002, the Bureau entered into a cancelable operating lease for warehouse space that expires in
2012. The lease contains a renewal option for 10 years.

Rental expense for the years ended September 30, 2009 and 2008, was $1.9 and $1.8 million,
respectively.

Future minimum payments under the lease as of September 30, 2009, are (in thousands):


   For the years ending September 30:

                      2010                                       $         1,838
                      2011                                                 1,850
                      2012                                                   935
   Total                                                         $         4,623


14. Fair Value Measurements

As discussed in Note 2, the Bureau adopted ASC 820-10, Fair Value Measurements and
Disclosures, on October 1, 2008. The fair values of the Bureau’s financial instruments represent
management’s best estimates of the amounts that would be received to sell those assets or that
would be paid to transfer those liabilities in an orderly transaction between market participants at
that date. Those fair value measurements maximize the use of observable inputs. However, in
situations where there is little, if any, market activity for the asset or liability at the measurement
date, the fair value measurement reflects the Bureau’s own judgments about the assumptions that
market participants would use in pricing the asset or liability. Those judgments are developed
by the Bureau based on the best information available in the circumstances.

ASC 820-10 establishes a fair value hierarchy that prioritizes the inputs to valuation techniques
used to measure fair value. The hierarchy gives the highest priority to unadjusted quote prices in
active markets for identical assets or liabilities (Level 1 measurements) and the lowest priority to
measurements involving significant unobservable inputs (Level 3 measurements).

The Bureau’s financial instruments are comprised of cash, accounts receivable, accounts
payable, accrued liabilities, and advances as of September 30, 2009 and 2008. The carrying
amounts of these financial instruments approximate fair value because of the short-term nature


                                                  14
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                September 30, 2009 and 2008

of these instruments. The Bureau holds no financial instruments that are measured at fair value
on a recurring basis or for which the fair value option has been elected at September 30, 2009.

15. Subsequent Events

The Bureau has evaluated subsequent events through October 30, 2009, the date which the
financial statements were available to be issued. There were no material events that required
additional accruals or disclosures.




                                              15
                Management’s Report on Internal Control Over Financial Reporting

We as management of the Bureau of Engraving and Printing (Bureau) are responsible for
establishing and maintaining adequate internal control over financial reporting and for our assertion
on the effectiveness of internal control over financial reporting. The Bureau’s internal control over
financial reporting is designed to provide reasonable assurance regarding the reliability of financial
reporting and the preparation of financial statements for external purposes in accordance with U.S.
generally accepted accounting principles.
The Bureau’s internal control over financial reporting includes those policies and procedures that:
• pertain to the maintenance of records that, in reasonable detail, accurately and fairly reflect our
  transactions and dispositions of the assets of the Bureau;
• provide reasonable assurance that our transactions are recorded as necessary to permit
  preparation of our financial statements in accordance with U.S. generally accepted accounting
  principles, and that receipts and expenditures of the Bureau are being made in accordance with
  authorizations of management of the Bureau and those charged with governance; and
• provide reasonable assurance regarding prevention, or timely detection and correction of
  unauthorized acquisition, use, or disposition of the Bureau’s assets that could have a material
  effect on the financial statements.
Because of its inherent limitations, internal control over financial reporting may not prevent or
detect misstatements. Also, projections of any evaluation of effectiveness to future periods are
subject to the risk that internal controls may become inadequate because of changes in conditions,
or that the degree of compliance with the policies or procedures may deteriorate.
We assessed the effectiveness of the Bureau’s internal control over financial reporting as of
September 30, 2009. In making this assessment, the Bureau used the criteria established in the
Internal Control – Integrated Framework issued by the Committee of Sponsoring Organizations of
the Treadway Commission (COSO).
Based on our assessment and those criteria, we conclude that the Bureau maintained effective
internal control over financial reporting as of September 30, 2009.
KPMG LLP, an independent public accounting firm, has issued their reports, included herein, on
(1) our financial statements; (2) our compliance with certain provisions of laws, regulations, and
contracts and other matters; and (3) our assertion on the effectiveness of internal control over
financial reporting.




October 30, 2009
Washington, DC
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


To the Inspector General, Department of the Treasury, and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have examined management’s assertion, included in the accompanying “Management’s Report on
Internal Control Over Financial Reporting,” that the Bureau of Engraving and Printing (Bureau)
maintained effective internal control over financial reporting as of September 30, 2009, based on the
criteria established in Internal Control – Integrated Framework issued by the Committee of Sponsoring
Organizations (COSO) of the Treadway Commission. The Bureau’s management is responsible for
maintaining effective internal control over financial reporting and for its assertion on the effectiveness of
internal control over financial reporting. Our responsibility is to express an opinion on management’s
assertion based on our examination.

We conducted our examination in accordance with attestation standards established by the American
Institute of Certified Public Accountants and the standards applicable to attestation engagements contained
in Government Auditing Standards, issued by the Comptroller General of the United States. Those
standards require that we plan and perform the examination to obtain reasonable assurance about whether
effective internal control over financial reporting was maintained in all material respects. Our examination
included obtaining an understanding of internal control over financial reporting, assessing the risk that a
material weakness exists, and testing and evaluating the design and operating effectiveness of internal
control based on the assessed risk. Our examination also included performing such other procedures as we
considered necessary in the circumstances. We believe that our examination provides a reasonable basis
for our opinion.

An entity’s internal control over financial reporting is a process effected by those charged with governance,
management, and other personnel, designed to provide reasonable assurance regarding the preparation of
reliable financial statements in accordance with U.S. generally accepted accounting principles. An entity’s
internal control over financial reporting includes those policies and procedures that (1) pertain to the
maintenance of records that, in reasonable detail, accurately and fairly reflect the transactions and
dispositions of the assets of the entity; (2) provide reasonable assurance that transactions are recorded as
necessary to permit preparation of financial statements in accordance with U.S. generally accepted
accounting principles, and that receipts and expenditures of the entity are being made only in accordance
with authorizations of management and those charged with governance; and (3) provide reasonable
assurance regarding prevention, or timely detection and correction of unauthorized acquisition, use, or
disposition of the entity’s assets that could have a material effect on the financial statements.

Because of its inherent limitations, internal control over financial reporting may not prevent, or detect and
correct misstatements. Also, projections of any evaluation of effectiveness to future periods are subject to
the risk that controls may become inadequate because of changes in conditions, or that the degree of
compliance with the policies or procedures may deteriorate.




                                                                         17
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
In our opinion, management’s assertion that the Bureau maintained effective internal control over financial
reporting as of September 30, 2009 is fairly stated, in all material respects, based on the criteria established
in Internal Control – Integrated Framework issued by COSO.

We also have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended, the balance sheets of the
Bureau as of September 30, 2009 and 2008, and the related statements of operations and cumulative results
of operations and cash flows of the Bureau and our report dated October 30, 2009 expressed an unqualified
opinion. That report referenced that the Bureau implemented two new accounting standards in fiscal year
2009.

We noted certain additional matters that we have reported to management of the Bureau in a separate letter
dated October 30, 2009.




October 30, 2009




                                                      18
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the balance sheets of the Bureau of Engraving and Printing (Bureau) as of September 30,
2009 and 2008, and the related statements of operations and cumulative results of operations and cash
flows (hereinafter referred to as “financial statements”) for the years then ended and have issued our report
thereon dated October 30, 2009. That report referenced that the Bureau implemented two new accounting
standards in fiscal year 2009.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the Bureau is responsible for complying with laws, regulations, and contracts
applicable to the Bureau. As part of obtaining reasonable assurance about whether the Bureau’s financial
statements are free of material misstatement, we performed tests of the Bureau’s compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of the financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, and
contracts applicable to the Bureau. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, disclosed no instances of
noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the Bureau’s management, the Department of
the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




October 30, 2009




                                                                         19
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
